October 22, 1999

A. KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 United States Postal Service Suspension and Debarment Process
          (Report Number FA-AR-00-001)

Attached is our report on the audit of the United States Postal Service (USPS)

suspension and debarment process (Project Number 99RA003FA000). The overall

objective of our review was to evaluate the effectiveness of Postal Service policies and 

procedures related to suspension and debarment actions.

.

We found that the Postal Service appropriately forwarded suspension and debarment 

notices to the General Services Administration for inclusion on their list of debarred, 

suspended or ineligible contractors. However, opportunities existed to clarify and 

improve Postal Service’s suspension and debarment policies and procedures. We

noted that the Postal Service suspended and debarred fewer contractors than other

Federal agencies with similar or smaller purchasing programs. Management agreed 

with and has planned actions to address the issues raised in this report. Management’s

comments and our evaluation of these comments are included in the report. 


We appreciate the cooperation and courtesies provided by your staff during the review. 

If you have questions or need additional information, please contact 

Director, Facility, at          or me at (703) 248-2300. 




Sylvia L. Owens
Assistant Inspector General
 for Revenue/Cost Containment

Attachment

cc: Mary S. Elcano
    James A. Cohen
    Rudolph K. Umscheid
    Alan B. Kiel
    John R. Gunnels
Suspension and Debarment Process                                    FA-AR-00-001



                                   TABLE OF CONTENTS
Part I

Executive Summary
                                                     i
Part II

Introduction
         Background                                                   1

         Objective, Scope, and Methodology                            1



Audit Results

         Suspension and Debarment Policy and Procedures               3

             Utilization of USPS and GSA Suspension and Debarment     3

                Listings


             Timeliness of Suspension and Debarment Actions           4

             Centralized Database                                     5

             Recommendations                                          5

             Management’s Comments                                    6

             Evaluation of Management’s Comments                      6



         Suspension and Debarment Actions                             7

             Recommendation                                           9

             Management’s Comments                                    9

             Evaluation of Management’s Comments                      9



          Contracting Administration                                  10 


Appendix: Management’s Comments                                       11 





                                      Restricted Information
Suspension and Debarment Process                                                FA-AR-00-001



                              EXECUTIVE SUMMARY
Introduction               The United States Postal Service (USPS) awards over
                           50,000 contracts annually at a cost of over $10 billion.
                           USPS suspended or debarred 29 individuals/firms from
                           calendar years 1995 through 1998, the four-year period
                           included in our review.

                           Suspension means a disqualification from government
                           contracting and subcontracting for a temporary period of
                           time because a company or individual is suspected of
                           engaging in criminal, fraudulent, or seriously improper
                           conduct. Debarment means, in general, an exclusion from
                           government contracting and subcontracting for a
                           reasonable, specified period of time because a company or
                           individual failed to perform under their contract or
                           performance was inadequate.

                           We initiated this review to evaluate the effectiveness of
                           USPS policies and procedures related to suspension and
                           debarment actions.

Results in Brief           USPS appropriately forwarded suspension and debarment
                           notices to the General Services Administration for inclusion
                           on their list of debarred, suspended or ineligible contractors.
                           However, opportunities exist to improve the Postal Service’s
                           suspension and debarment policies and procedures.
                           Specifically, the USPS Purchasing Manual’s suspension
                           and debarment policy was vague and subject to
                           misinterpretation in some areas. Also, the policy does not
                           provide adequate guidance to ensure timely processing of
                           suspension and debarment actions. Further, management
                           did not maintain a centralized database of contractors with
                           performance problems. In addition, we noted that USPS
                           suspends or debars fewer individuals/firms than other
                           agencies with similar or smaller contracting programs.
                           Finally, we noted instances of inadequate contract
                           administration.

Summary of                 We recommended that the Vice President, Purchasing and
Recommendations            Materials, in conjunction with General Counsel and the
                           Judicial Officer ensure that the Postal Service’s and General
                           Services Administration’s list of debarred, suspended or
                           ineligible contractors are available to and used by the
                           contracting officers. In addition, we recommended USPS


                                               i
                                    Restricted Information
Suspension and Debarment Process                                                  FA-AR-00-001



                           require contracting officers to submit a written justification to
                           Headquarters for approval if a contract award is
                           recommended to a supplier on the General Services
                           Administration list of debarred, suspended or ineligible
                           contractors. We also recommended that the USPS
                           consider establishing a task force to review Postal Service’s
                           suspension and debarment practices.

Summary of                 Management agreed that this report raised some legitimate
Management’s               questions regarding their suspension and debarment policy
Comments                   and procedures. In addition, management stated that they
                           plan to establish a team of Purchasing and Legal Counsel
                           personnel to review the need for changes to Postal
                           Service’s suspension and debarment practices. We have
                           included the full text of the comments in the appendix.

Overall Evaluation of      Management’s planned actions are responsive and address 

Management’s               the issues identified in this report. 

Comments 





                                               ii
                                    Restricted Information
Suspension and Debarment Process	                                              FA-AR-00-001



                                    INTRODUCTION
Background                  As a result of the Postal Reorganization Act of 1970, the
                            Postal Service is permitted to develop its own purchasing
                            rules and regulations to take advantage of the best public
                            and private purchasing practices. Whereas, federal
                            agencies must exercise full and open competition as a
                            result of the Competition in Contracting Act of 1984 (41
                            USC 253(a)(1)(A)), the Postal Service utilizes a policy of
                            “adequate competition” and therefore may limit competition
                            to selected or “pre-qualified” offerors.

                            Code of Federal Regulations, Part 39 Section 957, outlines
                            the procedures for suspension and debarment from
                            contracting. Suspension means a disqualification from
                            government contracting and subcontracting for a temporary
                            period of time because a company or individual is
                            suspected of engaging in criminal, fraudulent, or seriously
                            improper conduct. Suspension is to be used on an interim
                            basis pending debarment proceedings. Debarment means,
                            in general, an exclusion from government contracting and
                            subcontracting for a reasonable, specified period of time
                            because an individual/firm failed to perform or their
                            performance was inadequate. Suspension and debarment
                            are used to protect the USPS and the government against
                            fraudulent and unethical contractors and are not meant to
                            be punitive in nature. The USPS Purchasing Manual states
                            that debarment, suspension, or ineligibility of a contractor
                            does not, by itself, effect its rights under an existing
                            contract.

                            The USPS Purchasing Manual, Chapter 3.7 and
                            Appendix D, outlines policies and procedures for
                            suspension and debarment action. Chapter 3.7 also
                            provides the policies, definitions, and procedures for
                            establishing and maintaining a USPS debarred, suspended,
                            or ineligible list of contractors/subcontractors.

Objective, Scope, and       The overall objective of our review was to evaluate the
Methodology                 effectiveness of USPS policies and procedures related to
                            suspension and debarment actions. Specifically, we
                            determined whether:

                            •	 General Services Administration and USPS contracting
                               officers were properly notified of suspensions and
                               debarments,

                                                1
                                     Restricted Information
Suspension and Debarment Process	                                                FA-AR-00-001




                            •	 contracting officers disqualified, suspended or debarred
                               contractors from USPS procurement awards, and
                            •	 suspension and debarment actions were timely
                               processed.

                            In addition, we compared USPS suspension and debarment
                            practices with other federal agencies.

                            To accomplish our objectives, we reviewed various federal
                            and USPS policies and procedures relating to suspension
                            and debarment, including, but not limited to, 39 CFR Part
                            957; the Federal Acquisition Regulation; USPS Purchasing
                            Manual (January 31, 1997); and USPS Design and
                            Construction Handbook (RE-14, October 1989). We
                            reviewed the suspension and debarment files maintained in
                            the Purchasing Policies and Programs office at USPS
                            Headquarters for the period 1995 through 1998. We also
                            reviewed hearing results on suspension and debarment
                            cases that were appealed over the last 27 years.

                            We conducted interviews with officials from the main
                            purchasing groups (transportation, purchasing and
                            materials, and facilities). In addition, we interviewed several
                            members of the Inspection Service who had been involved
                            in investigations relating to debarment/suspension activities.
                            We also compared a list of judgmentally selected USPS
                            contractors to those on the General Services
                            Administration’s list of debarred, suspended or ineligible
                            contractors. We obtained and analyzed suspension and
                            debarment policies, actions and statistics from other
                            government agencies, specifically General Services
                            Administration, Defense Logistics Agency, Department of
                            Transportation, and Department of Education.

                            We conducted this audit in accordance with generally
                            accepted government auditing standards and included such
                            tests of internal controls, as we deemed necessary under
                            the circumstances. We accomplished the audit between
                            December 1998 and August 1999 at USPS Headquarters,
                            and offices located in Arlington, Virginia and Memphis,
                            Tennessee.




                                                2
                                     Restricted Information
Suspension and Debarment Process                                                 FA-AR-00-001



                                   AUDIT RESULTS
Suspension and             Opportunities exist to improve Postal Service’s suspension
Debarment Policy           and debarment policies and procedures. Specifically, the
and Procedures             USPS Purchasing Manual’s suspension and debarment
                           policy was vague and subject to misinterpretation in some
                           areas. Additionally, the policy did not provide adequate
                           guidance to ensure timely processing of suspension and
                           debarment actions. Also, management did not maintain a
                           centralized database to identify contractors with
                           performance problems.

Utilization of USPS and According to USPS policy (paragraph 3.7.1.a, of the USPS
GSA Suspension and      Purchasing Manual), purchasing offices may not solicit
Debarment Listings      proposals from, award contracts to, or consent (when the
                        contract provides for such consent) to subcontracts with
                        debarred, suspended, or ineligible suppliers/contractors.
                        The Postal Service maintains its own list of suspended and
                        debarred contractors. The General Services Administration
                        compiles and maintains another list, which is a consolidated
                        list of all suppliers debarred, suspended, or declared
                        ineligible by the executive agencies and the General
                        Accounting Office.

                           The USPS Purchasing Manual did not specifically state that
                           contracting officers must first consult the USPS or General
                           Services Administration lists of debarred, suspended or
                           ineligible contractors before awarding a contract.
                           Paragraph 3.7.1.c, of the USPS Purchasing Manual states
                           in part: “Within the Postal Service, the General Services
                           Administration list is for information only and does not
                           replace or supplement the list maintained by the Postal
                           Service.” This statement could easily be misunderstood
                           and raises the question as to whether a contracting officer
                           has the authority to make awards to suppliers on the
                           General Services Administration list or whether the list must
                           be considered before awarding a contract.

                           Although our comparison of 150 current Postal Service
                           contractors to the General Services Administration’s list of
                           debarred, suspended or ineligible contractors found no
                           awards made to suspended or debarred individuals or firms,
                           the example noted below illustrates that policy clarification is
                           required.




                                               3
                                    Restricted Information
Suspension and Debarment Process                                               FA-AR-00-001



                           A contracting officer at one field purchasing office stated
                           that contracting officers primarily consult the USPS and
                           General Services Administration’s lists of debarred,
                           suspended or ineligible contractors for high dollar value,
                           critical, and sensitive item contracts. OIG found no point of
                           reference for this interpretation of the guidance in the
                           Purchasing Manual. The contracting officer also stated that
                           often current copies of the General Services
                           Administration’s list are not available and he sometimes
                           experiences difficulty accessing the list on the Internet.

Timeliness of              Postal officials often did not process suspension and
Suspension and             debarment actions timely.
Debarment Actions
                           A review of ten files referred for suspension and/or
                           debarment action between 1995 and 1998 revealed the
                           process took between 6 and 18 months to accomplish. OIG
                           benchmarked with the Defense Logistics Agency, which
                           processes an average of 454 suspension and debarment
                           actions annually. We found that it took between one to two
                           weeks to process actions, once the field request reached
                           Defense Logistics Agency Headquarters.

                           For example, a Facilities Service Office Manager submitted
                           a request and relevant material to debar five
                           contractors/individuals convicted of criminal offenses
                           against the Postal Service. Unfortunately, the manager
                           submitted the request a year after the conviction.
                           Additionally, there was a seven-month interval between
                           USPS Headquarters Law Department’s request for
                           additional information before Purchasing, Policies and
                           Programs followed up with the requesting Facilities Service
                           Office. After one year, the additional information still had
                           not been received; therefore, no further action was taken on
                           the request.

                           In another case, Purchasing Policies and Programs closed
                           a request for suspension and debarment of one contractor
                           due to lack of adequate information and delays in the
                           processing phase.

                           Management attributed most of the delays to incomplete
                           information supporting suspension and debarment requests,
                           from field offices. Management stated they frequently
                           request additional information from field activities, but they



                                               4
                                    Restricted Information
Suspension and Debarment Process	                                              FA-AR-00-001



                            often do not receive the information promptly. Our review of
                            Postal Service’s current guidance found it does not
                            specifically address the steps involved or information
                            required for suspension and debarment actions. During the
                            audit, OIG advised Purchasing and Materials personnel that
                            Defense Logistics Agency had developed guidance outlining
                            specific requirements for the submission of suspension and
                            debarment reports. Management requested and OIG
                            provided a copy of the guidance as well as a point of
                            contact at Defense Logistics Agency.

Centralized Database 	      Our review also found that USPS field personnel often were
                            not aware of actions taken against contractors. In cases
                            where the contractor was not suspended or debarred, field
                            personnel may not be made aware of performance
                            problems. Although USPS officials stated that other USPS
                            purchasing offices are notified through the Internet, via
                            telephone or word of mouth regarding the performance of
                            contractors, they could not provide documented evidence to
                            substantiate that information. Currently, evaluations of
                            contractor performance are maintained in files where the
                            service occurred. Input of performance information into a
                            database accessible throughout Postal Service could readily
                            provide needed information.

                            During the audit, management advised OIG about a new
                            contractor performance system currently being deployed.
                            The system, which is used by another federal agency,
                            documents contractor performance and assists contracting
                            officers in assessing past performance and contractor
                            capability. Once implemented, management stated
                            contracting officers would have the capability to review
                            contractor performance records postal-wide. Since the
                            system is currently under deployment, we offer no additional
                            recommendations at this time.

Recommendations 	           The Vice President, Purchasing and Materials, in
                            coordination with General Counsel and the Judicial Officer
                            should:

                            1. Require contracting officers to use the General Services
                               Administration list to evaluate contractor capability.

                            2. Require contracting officers to submit a written
                               justification for approval if an award is recommended to
                               a supplier on the General Services Administration list.

                                                5
                                     Restricted Information
Suspension and Debarment Process	                                              FA-AR-00-001




                            3. Ensure the Postal Service’s and the General Services
                               Administration’s lists of debarred, suspended or
                               ineligible contractors are available to all contracting
                               officers.

                            4. Establish specific guidance for submitting suspension
                               and debarment recommendations/referrals to USPS
                               Headquarters to effectuate timely action.

Management’s 	              The Vice President, Purchasing and Materials agreed to
Comments 	                  establish a team of purchasing and legal counsel personnel
                            to review the need for changes to Postal Service’s
                            suspension and debarment practices along with
                            recommendations 1 through 4. Management also agreed to
                            provide detailed responses to each of our recommendations
                            by May 31, 2000.

Evaluation of               Management's comments are responsive to our

Management’s                recommendations. 

Comments 





                                                6
                                     Restricted Information
Suspension and Debarment Process                                                            FA-AR-00-001




Suspension and             Although Postal Service awards 50,000 contracts annually
Debarment Actions          at a cost of over $10 billion, Postal Service has only
                           suspended or debarred 29 individuals/firms during the past
                           four years. This is a sharp contrast to other federal
                           agencies with similar or smaller contracting programs. As
                           depicted in the chart below, three other federal agencies we
                           contacted had suspended or debarred between 50 and 500
                           contractors in 1998 alone. Defense Logistics Agency, which
                           awards approximately $7.5 billion in contracts annually,
                           suspended or debarred 547 contractors in 1998.


                                                  Debarment/Suspension Activity
                                         600                                                 30
                                         500                                                 25
                                         400                                                 20
                             Number of




                                                                                                   Contract $
                                                                                                    (billions)
                              Actions




                                         300                                                 15
                                         200                                                 10
                                         100                                                 5
                                          0                                                  0
                                                 DLA        DOT        DOE        USPS
                                                                  Agency
                                               Debarment/Suspension        Contract $ (billions)



                           Officials from Purchasing and Materials and the Law
                           Department provided the following explanations regarding
                           the limited number of suspensions and debarment actions.

                           Management stated that their efforts to pre-qualify
                           contractors in advance of solicitations has dramatically
                           reduced the need to suspend or debar contractors.
                           Management also said that the pre-qualification process has
                           given them the ability to “weed out” less responsible




                                                    7
                                         Restricted Information
Suspension and Debarment Process                                                                       FA-AR-00-001



                                  contractors. The OIG previously audited the procurement
                                  pre-qualification process and reported the results1 in
                                  September 1998. At the time of the audit, Postal Service
                                  had only awarded 22 contracts using the pre-qualification
                                  process.

                                  USPS Headquarters Law Department staff stated that the
                                  Postal Service prefers to utilize the remedies available
                                  under the contract, such as termination for default, instead
                                  of suspension or debarment. Postal officials stated these
                                  remedies are more expedient, less costly and allow the
                                  contracting officer to execute an emergency contract to fulfill
                                  the remaining contractual obligations. Unless the contractor
                                  has been indicted, convicted, or is willing to enter into a
                                  consent or settlement agreement with Postal Service
                                  regarding debarment, little effort is made to pursue
                                  debarment. Remedies outside of suspension or debarment
                                  provide little protection for Postal Service or other federal
                                  agencies because the companies are not excluded from
                                  government contracting.

                                  USPS reluctance to pursue debarment may in part be
                                  attributed to the fact that the Postal Service has imposed on
                                  itself a higher standard of proof of evidence, as it relates to
                                  debarments. While agencies regulated by the Federal
                                  Acquisition Regulation rely on a preponderance of evidence
                                  for debarments, USPS Purchasing Manual calls for “clear
                                  and convincing evidence.” This is a significantly higher
                                  standard of proof than other agencies’ standards.

                                  Admittedly, suspensions and debarments are serious
                                  sanctions that should only be imposed in the public interest
                                  for the protection of the Postal Service and other federal
                                  agencies. However, in instances where a contracted entity
                                  has displayed a lack of business integrity or other
                                  irregularities, appropriate action should be taken.




1
  The audit revealed inconsistencies in the application of evaluation criteria used in the pre-qualification process,
which focused on “financial capabilities” and the “proven record” of potential contractors. The review also disclosed
poor performance in oversight of the process and specifically noted a weakness in identifying potential conflicts of
interest, which questions the effectiveness of the process to prevent fraudulent activity.


                                                          8
                                               Restricted Information
Suspension and Debarment Process	                                                FA-AR-00-001



Recommendation	             The Vice President of Purchasing and Materials, in
                            coordination with the General Counsel should:

                            5. In implementing recommendations 1 through 4, consider
                               establishing a task force to review Postal Service’s
                               suspension and debarment practices, as compared to
                               other federal agencies, and to recommend any
                               additional changes deemed necessary.

Management’s                The Vice President, Purchasing and Materials agreed with
Comments                    this recommendation to establish a task force to review their
                            Suspension and Debarment program. Management stated
                            that they would review the practices of leading private
                            sector companies programs in addition to other federal
                            agencies. Management further agreed to provide us with
                            specific response to the recommendation by May 31, 2000.

Evaluation of               Management's comments are responsive to our

Management’s                recommendations. 

Comments 





                                                9
                                     Restricted Information
Suspension and Debarment Process                                               FA-AR-00-001




Contract                   Our review of the 10 contract files referred for suspension
Administration             and debarment actions revealed that in 3 cases, inadequate
                           contract administration contributed to USPS difficulty in
                           pursuing suspension or debarment cases.

                           For example, in one potential debarment action, our review
                           of the file showed the contractor stated that the Postal
                           Service did not use due diligence in its oversight and
                           administration of his contracts. According to the file, the
                           contractor indicated that at no time were any of his billings
                           called into question and that the Postal Service provided no
                           guidance or supervision on the contracts. The Postal
                           Service subsequently dismissed an administrative case
                           against the contractor. The contractor, though admitting no
                           wrongdoing, entered into a settlement agreement to be
                           debarred for three years. However, insufficient contract
                           administration hampered the USPS’ ability to pursue an
                           indictment or seek restitution from the contractor.

                           OIG is in the process of conducting a series of systemic
                           reviews on various aspects of contract administration.
                           Since the issues noted above were from a limited sample,
                           OIG will not offer any recommendations at this time.
                           Instead, the issues will be considered during the contract
                           administration audits.




                                              10
                                    Restricted Information
Suspension and Debarment Process                            FA-AR-00-001




                                             11                Appendix
                                   Restricted Information
Suspension and Debarment Process                            FA-AR-00-001




Major Contributors to
this Report were:




                                             12
                                   Restricted Information
